SEC.gov |  Priority to Location of New Offices in Rural Areas
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Priority to Location of New Offices in Rural Areas
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM No. 22
March 28, 2002
To: Jayne Seidman
From: Walter Stachnik
Re: Priority to Location of New Offices in Rural Areas
In Section 601 of the Rural Development Act (RDA) of 1972 (7 U.S.C. sec. 2204b-1), Congress required agencies to establish and maintain policies and procedures giving first priority to the location of new offices and other facilities in rural areas.  Section 647 of the Treasury and General Government Appropriations Act (Public Law 107-67, enacted November 12, 2001) required the Office of Inspector General in each agency to prepare a report to the Congress describing the agency's compliance with this requirement.
Based on our discussions with Commission staff, it appears that the Commission has not implemented the RDA requirement. 1 Accordingly, we are recommending that the Office of Administrative and Personnel Management develop policies and procedures giving priority to the location of new offices and other facilities in rural areas.  A possible location for the policies and procedures is in Commission Regulation SECR 5-8, Space Management Program.
Recommendation A
In consultation with the Office of the General Counsel, the Office of Administrative and Personnel Management (OAPM) should establish and maintain policies and procedures giving first priority to the location of new offices and other facilities in rural areas, as required by the RDA.
Management response: OAPM concurred with the recommendation (see attached).
cc:
David Becker                                                                                                                                     George Brown
Keith Kanyan
Jim McConnell
Tom McCool
Darlene Pryor
Mark Radke
1    In a July 2001 report (GAO-01-805), the General Accounting Office found that only 5 of the 13 cabinet departments it contacted had a policy to implement RDA.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us